May 07, 2010

JERRY D. LANE
VICE PRESIDENT, CAPITAL METRO OPERATIONS

SUBJECT: Audit Report – Capital Metro Area: Delivery Barcode Sorters Equipment
         Utilization (Report Number DA-AR-10-002)

This report presents the results of our self-initiated audit of equipment utilization.
(Project Number 09YG039DA000). As we highlighted in the Quarter 1 fiscal year (FY)
2010 maintenance risk model, delivery barcode sorter (DBCS) machines — core letter
mail processing platforms — were experiencing a 50 percent utilization rate. To
maximize the utilization of DBCS equipment to meet cost goals and minimize financial
risk, our objective was to identify solutions for DBCS machine excess capacity, given
declining mail volume. See Appendix A for additional information about this audit.

Conclusion

Declining mail volumes have resulted in decreased utilization of DBCS machines in the
Capital Metro Area. While mail volumes decline, plants routinely staff and operate
DBCS machines unnecessarily using traditional standard approaches. DBCS excess
capacities exist because plants in the Capital Metro Area do not adhere to lean six
sigma work distribution standards. To minimize overcapacity, lean six sigma
synchronizes DBCS startups with available mail volume and dispatch times. We
determined that the Capital Metro Area could have deactivated 55 and 72 DBCS
machines1 during FYs 2008 and 2009, respectively, and still meet service requirements.
Deactivating excess DBCS machines would have saved the Capital Metro Area $3.1
million in mail processing costs and $6.6 million in maintenance costs during FYs 2008
and 2009. See Appendix B for our detailed analysis of this topic.

To address DBCS excess capacity, we recommend the vice president, Capital Metro
Area:

    1. Incorporate lean six sigma work distribution standards for DBCS mail processing.

    2. As DBCS machines become idle, deactivate and eliminate the associated mail
       processing and maintenance workhours.



1
    Full-time equivalents based on 303 days per year.
Capital Metro Area: Delivery Barcode Sorter                                    DA-AR-10-002
 Equipment Utilization


Management’s Comments

Management agreed with our finding and two recommendations and is taking the
following actions to implement corrective measures:

           Recommendation 1 – Management stated it is presently undertaking a lean
            six sigma initiative to improve DBCS utilization and expects to complete the
            initiative by June 30, 2010.
           Recommendation 2 – Management, in recognition of declining mail volume,
            plans to properly schedule machines to match the declining workload.

Management does not agree with the annual impact of our findings on maintenance and
mail processing workhours and provided the following reasons:

           They had difficulty assessing calculations because the specific calculation
            used in the report and considerations taken into account as stated in the
            report were not in the draft report.
           The OIG may not have taken all factors into consideration, leading to inflated
            dollar savings.
           The discussion draft indicated 27 excess DBCS machines and the draft report
            noted 72.
           The Capital Metro Area would require the 30 existing underutilized DBCSs to
            satisfy its ongoing initiative to eliminate all Carrier Sequence Bar Code
            Sorters (CSBCS) processing.

We have included management comments, in their entirety, in Appendix D.

Evaluation of Management’s Comments

While management agrees with the recommendations and the existence of a monetary
impact, they believe the amount is inflated. Our analysis appropriately considered
customer service times and any CSBCS machines eliminated during FYs 2008 and
2009. We believe the reported monetary impact is conservative. It is based on
maintenance and mail processing hours that could have been saved if fewer DBCS
machines had been in operation during the last two fiscal years. We did not project the
future impact of eliminating DBCS machines.

Although our calculations showed 72 DBCS machine could have been deactivated
based on FY 2009 mail volumes, we did not recommend deactivation of a specific
number of machines in consideration of the CSBCS reduction initiative. Management’s
final analysis concluded the Postal Service would need 30 DBCS machines to process
CSBCS mail moved from the field to the P&DC’s. Therefore, based on the Capital
Metro Area analysis and our analysis, we believe the opportunity exists to deactivate 42




                                              2
Capital Metro Area: Delivery Barcode Sorter                                                 DA-AR-10-002
 Equipment Utilization


DBCS machines2. We believe the monetary impact presented is conservative as if we
had calculated the monetary impact of future DBCS machine reductions due to
declining mail volumes, the monetary impact would have been significantly higher over
a 10-year period.

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and corrective actions should resolve
the issues identified in the report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We will report $9,639,036 in unrecoverable questioned costs in our Semiannual Report
to Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, director,
Engineering and Facilities, or me at 703-248-2100.

            E-Signed by Judith Leonhardt
          VERIFY authenticity with ApproveIt




for
Mark Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Patrick Donahoe
    Steven J. Forte
    David E. Williams
    Area Vice Presidents
    Sally K. Haring




2
 Based on FY09 volumes, 72 DBCS machine could be eliminated. Subtracting the 30 DBCS machines needed to
process future CSBCS volumes allows for the elimination of 42 DBCS machines.



                                                    3
Capital Metro Area: Delivery Barcode Sorter                                                     DA-AR-10-002
 Equipment Utilization


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The DBCS is a multilevel, high speed bar code sorter. Implementation of the delivery
point bar code allows the DBCS to sort letter mail in carrier walk sequence, eliminating
the need for additional sorting at the delivery unit. Letter trays of sequenced mail are
transported by the carrier directly to vehicles for delivery to the customer. Because the
DBCS can sort approximately 40,000 pieces per hour, it has becomes a major
contributor to rapid and efficient letter mail processing. To maximize the utilization of
DBCS equipment to meet the service standard and cost goals the mail and machine
must be readied before processing. Once ready, no more than two clerks are assigned
to operate the machine.

Preventive maintenance is the scheduled, systematic servicing of equipment to
maximize operating conditions. Preventive maintenance guidelines3 are based on
pieces fed per production run for the DBCS machines. Because the level of mail
processing activity wears parts, preventive maintenance performed is based on the
daily throughput of the machine.

Lean management is focused on reducing waste and improving process flows while Six
Sigma methodologies concentrate on reducing variation or defects and improving
quality. Of the 218 DBCS Lean Six Sigma projects tracked by Postal Service, one
project was in process that addressed automation utilization.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our audit objective was to identify solutions for DBCS machine excess capacity, given
declining mail volume. To answer our objective, we visited and interviewed managers at
nine of 28 plants that process more than 40 percent of letter mail in the Capital Metro
Area. These plants were judgmentally selected based on high letter mail volume. We
also analyzed Web End of Run (WebEOR)4 data to assess DBCS processing capacity.
To determine monetary impact, we identified the additional operational and
maintenance costs attributed to distributing workloads over available DBCS machines.

We extracted data from the WebEOR system to analyze DBCS utilization. The OIG
previously reported5 that the internal controls over management operating data (MODS)
were generally effective and reliable when used for the purpose for which it is intended
– to assess overall plant efficiency. We also performed reasonableness tests and found
the WebEOR volume data sufficiently reliable to satisfy our audit objective.


3
  MMO-082-07, Production Based Maintenance
4
  WebEOR provides the capability to reproduce and summarize machine information captured during a DBCS run.
5
  Management Operating Data System (Report Number MS-AR-07-003, dated August 21, 2007). WebEOR is a
feeder system to MODS.



                                                      4
Capital Metro Area: Delivery Barcode Sorter                                      DA-AR-10-002
 Equipment Utilization


We conducted this performance audit from August 2009 through April 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on March 10, 2010, and included their
comments where appropriate.


PRIOR AUDIT COVERAGE

We did not identify any prior audits or reviews related to the objective of this audit.




                                              5
Capital Metro Area: Delivery Barcode Sorter                                                       DA-AR-10-002
 Equipment Utilization


                               APPENDIX B: DETAILED ANALYSIS

Excess Delivery Barcode Sorter Capacity

Although Capital Metro Area letter mail volume declined from 30.7 to 25.9 billion pieces
(15.6 percent) from FY 2007 through FY 2009, plants continue to operate and staff
available DBCSs in the same manner. As shown in Chart 1, FY 2009 Capital Metro
Area DBCS excess capacity ranged from 50 to 57 percent by District. This overcapacity
could process another 21.5 billion letter mailpieces. The greatest opportunities to
minimize excess capacities were in the Baltimore, Richmond, and Greensboro districts,
accounting for more than 60 percent of the excess mailpiece capacity.

         Chart 1. FY 2009 Capital Metro Area Delivery Barcode Sorter Excess Capacity

                                        Machine
                                     Under-Utilization           Excess Mailpiece              Cumulative
             District                  Percentage                 Capacity (000s)               Percent
    Baltimore                             57%                       5,148,855                       24%
    Richmond                              53%                       4,126,524                       19%
    Greensboro                            51%                       3,883,170                       18%
    Northern Virginia                     54%                       3,032,021                       14%
    Mid-Carolinas                         50%                       2,908,327                       13%
    Greater South Carolina                50%                       2,012,589                        9%
    Capital                               56%                        434,159                         2%
               Total                        --                      21,545,645                     100%
       Source: Enterprise Data Warehouse and Mail Image Reporting System, FY 2009.

We recognize that the Capital Metro Area has an ongoing initiative to reduce carrier
sequence barcode sorters (CSBCS) letter mail processing at delivery units. If all
delivery units respond to the Capital Metro Area’s initiative6 to reduce CSBCS mail
processing, delivery point sequencing (DPS) volume at plants would increase
proportionately. We have previously reported7 that although a business case exists for
continued use of CSBCS machines in some associate offices, districts can still reduce
machines. For example, the Mid Carolinas district reduced 11 of 121 CSBCS machines
but had not yet fully evaluated moving more letter mail to the DBCS’ in the plants.
Should DBCS excess capacity still exist after this initiative, the Capital Metro Area
would be in a position to strategically determine which DBCS machines it can deactivate
and still meet delivery service requirements. Reducing excess machine capacities has
the potential to save additional processing and maintenance workhours as described in
the next sections.


6
  Headquarters Operations Technical and Systems Integration Support personnel began an initiative during FY 2009
to reduce the number of CSBCS machines nationwide because of declining mail volumes.
7
  Continuing Use of Carrier Sequence Barcode Sorter Machines at Delivery Units (Report Number DR-AR-10-004)



                                                        6
Capital Metro Area: Delivery Barcode Sorter                                                             DA-AR-10-002
 Equipment Utilization




Delivery Barcode Sorter and Lean Six Sigma Management Standards
                                                                       Illustration 1. Traditional Versus Lean
Delivery Barcode Sorter and
lean six sigma management
standards8 recommend using
mail volume levels when
determining the number of
machines to operate and staff.
The procedures outlined in
these standards are key to
reducing excess capacities or
overproduction,9 increasing
productivity, and controlling
costs.

DBCS excess capacities
existed because plants10 in the
Capital Metro Area did not
adhere to lean six sigma work
distribution standards. In
addition, although the DBCS
work instruction guide requires consideration of mail volume before machine startup, it
does not reference lean sigma principles regarding overproduction. Illustration 1 depicts
work distribution options, highlighting the lean option to fully load machines, except one
to expose waste. To minimize overproduction, lean six sigma synchronizes DBCS
startups with available mail volume and dispatch times.




8
 DBCS Standardization Work Instruction Guide, Version 9, dated May 31, 2006
http://blue.usps.gov/continuousimprovement/presentations.htm

9
 Overproduction - making more than is required by the next process; making it earlier than is required by the next
process; making it faster than is required by the next process.

10
  We conducted site visits at the following Capital Metro plants; Merrifield Processing and Distribution Center
(P&DC), Dulles P&DC, Richmond P&DC, Charlotte P&DC, Ashville P&DC, Greenville P&DC, Hickory P&DF,
Suburban MD P&DC, and Columbia P&DC. In addition, we performed data analysis of average daily machine
runtimes for all plants in the Capital Metro Area.




                                                           7
Capital Metro Area: Delivery Barcode Sorter                                                       DA-AR-10-002
 Equipment Utilization



Impact of Excess Delivery Barcode Sorter Capacity

Fully loading and staffing needed DBCS machines before starting the next machine can
reduce work crew and maintenance needs. Combining any two DBCS DPS second
pass sorts less than 1.5 hours on one machine permits deactivation of the other
machine while allowing time for clearance. Using this criteria, we determined that the
Capital Metro Area could have deactivated 55 and 72 DBCS machine equivalents11
during FYs 2008 and 2009, respectively, and still have met service requirements.

We estimate deactivating excess DBCS machines would have saved the Capital Metro
Area $3.1 million in mail processing costs and $6.6 million in maintenance costs during
FYs 2008 and 2009. This action should also result in savings in future years as the
Capital Metro Area implements its CSBCS initiative and idle DBCS machines become
more apparent. See Appendix C for details of the monetary impact calculations.




11
     For FY 2008, 16,663 machine-days/303 days per year and for FY 2009, 21,873 machine-days/303 days per year.




                                                         8
Capital Metro Area: Delivery Barcode Sorter                                     DA-AR-10-002
 Equipment Utilization




                   APPENDIX C: MONETARY IMPACT CALCULATIONS

                           Maintenance and Mail Processing Costs
        Unrecoverable Questioned Cost

                                               Hours            Cost         Total Cost
    Maintenance                      FY 2008      73,317       $2,755,994   
                                     FY 2009      96,241       $3,798,640     $6,554,634
    Mail Processing                  FY 2008      39,595       $1,330,396
                                     FY 2009      49,548       $1,754,006     $3,084,402
                                                                                         
                                                            
        Total Monetary Impact                                                 $9,639,036


The preceding calculation of monetary impact is based on specific facts derived from
data. These facts are as follows:
Assumption Factor
    FY 2008 Capital Metro Area Overtime Hourly labor rates, Labor Distribution Code
       (LDC) 36 = $37.59, LDC 11 = $33.60,

        FY 2009 Capital Metro Area Overtime Hourly labor rates, Labor Distribution
         Code (LDC) 36 = $39.47, LDC 11 = $35.44,

        LDC 11 hour savings = Actual hours x percent runtime for machines that could
         have been deactivated.

        LDC 36 hour savings = average preventive and corrective maintenance hours
         per machine per day x total days machines recommended for deactivation were
         run.

        FYs 2008 and 2009 mail processing (LDC 11) and maintenance (LDC 36)
         overtime dollars are $20.8 million and $11.9 million, respectively.




                                               9
Capital Metro Area: Delivery Barcode Sorter                 DA-AR-10-002
 Equipment Utilization



                        APPENDIX D: MANAGEMENT’S COMMENTS




                                              10
Capital Metro Area: Delivery Barcode Sorter        DA-AR-10-002
 Equipment Utilization




                                              11
